                                                          U.S. Department of Housing and Urban Development
                                                          District Office of the Inspector General
                                                          Office of Audit
                                                          Richard B. Russell Federal Building
                                                          75 Spring Street, SW, Room 330
                                                          Atlanta, GA 30303-3388
                                                          (404) 331-3369



                                                            Issue Date

                                                                  May 12, 2008
                                                             Audit Report Number

                                                                  2008-AT-0802


MEMORANDUM FOR:               R. Edmond Sprayberry, Director, Office of Public Housing, 4CPH



FROM:          James D. McKay, Regional Inspector General for Audit, 4AGA

SUBJECT:       Corrective Action Verification
               Opelika Housing Authority
               Public Housing Programs
               Audit Report 2004-AT-1011

We performed a corrective action verification of audit recommendations 1A, 1E, and 1F at your
request. The purpose of the corrective action verification was to determine whether the selected
audit recommendations were implemented and the deficiencies cited in the report were corrected.

                                    Scope and Methodology

Our corrective action verification focused on recommendations 1A, 1E, and 1F from audit report
2004-AT-1011, issued July 23, 2004. We reviewed the audit report and associated supporting
documentation, as well as the U.S. Department of Housing and Urban Development (HUD)
management decisions and the supporting documentation used by HUD to close the
recommendations. We interviewed the staff of the Birmingham Office of Public Housing and the
Housing Authority of the City of Opelika (Authority). We also reviewed Authority and Opelika
Housing Development Corporation (Development Corporation) files, general ledgers, cash
receipt and disbursement records, journal vouchers, and applicable HUD regulations.

                                          Background

On July 23, 2004, we issued audit report 2004-AT-1011 on the Authority’s public housing
programs. Finding 1 of the report noted that the Authority made improper transactions that
benefited the Development Corporation, a not-for-profit corporation affiliated with the
Authority. These improper transactions occurred because the Authority’s board of
commissioners and executive director served in conflicting roles and did not establish controls to
safeguard Authority resources, thereby weakening the Authority’s financial position and
exposing it to potential liability. The report included nine recommendations. At the request of the
Office of Public Housing, we focused our verification on recommendations 1A, 1E, and 1F.
We recommended that the Birmingham Office of Public Housing

1A.    Consider requiring the executive director to resign his presidency of the Development
       Corporation.

1E.    Require the Authority to collect the $116,000 interest-free note to prevent a $99,843
       interest subsidy to the Development Corporation over the 20-year term.

1F.    Require the Authority to amend the guarantee of general partner and developer
       obligations on the Ashton Way Apartments project to limit the Authority’s liability to
       resources not regulated by its annual contributions contract.

The July 20, 2004, proposed management decisions from the Birmingham Office of Public
Housing stated that for:

•       Recommendation 1A, the Office of Public Housing will monitor the impact of the
recommended training and internal controls for transactions between the Authority and the
Development Corporation. If within one year from approval of these management decisions, the
field office finds that these actions have not been sufficient to resolve the problems caused by the
conflict of interest, it will require the executive director to resign.

•       Recommendation 1E, the Birmingham Office of Public Housing will require the
Authority to enter into a new repayment agreement secured by all current and/or future nonprofit
assets. The repayment agreement will be for $116,000 or the new price based on the new
appraisal. It (the interest rate) will be 7 percent or some other objectively determined market
interest rate. The term of the payment will be determined by the field office’s assessment of the
Development Corporation’s ability to repay the funds without becoming bankrupt.

•      For Recommendation 1F, the Birmingham Office of Public Housing will require the
Authority to pursue amending the guarantee of general partner and developer obligations on the
Ashton Way Apartments project to limit the Authority’s liability to resources not regulated by its
annual contributions contract.

On July 23, 2004, our office concurred with the proposed management decisions.

                                        Results of Review

Recommendation 1A

Based on our discussions with the executive director and our review of Development
Corporation’s board minutes, we determined that the executive director had not resigned as
president of the Development Corporation. To resolve recommendation 1A, the executive
director offered his letter of resignation to the Development Corporation’s board on July 19,


                                                 2
2005, and provided a copy of the letter to the Birmingham Office of Public Housing. The
Birmingham office closed the recommendation on July 21, 2005. The Development
Corporation’s board, however, elected not to accept the resignation. (Resignation rejected by
board) The executive director did not notify HUD of the board’s action and continued to perform
duties as president. The executive director stated that he was not aware that he had to inform
HUD of the Board's decision.

The Development Corporation’s current operations are minimal. Its board consists of three
members and has only met twice over the past two years. The last board meeting was held June
26, 2006. The board is now independent of the Authority. At the time of the audit, the boards
were the same. The president does not have voting rights.

The Development Corporation currently owns three single-family homes, which it rents to low-
income residents. The Authority maintains the houses for the Development Corporation. It
reimburses the Authority based on a maintenance schedule. Maintenance costs have been
minimal. For the period October 1, 2006, through January 31, 2008, total costs were $406. The
Development Corporation’s other assets include cash and investments.

The executive director informed us that the Development Corporation’s board was considering
dissolving the corporation and provided a copy of an e-mail from the Authority’s attorney
recommending an attorney who deals with corporate dissolution. Also, in a letter, dated
February 7, 2008, the executive director informed the Birmingham Office of Public Housing that
the Development Corporation’s board would decide the future of the Development Corporation.
If the Development Corporation is dissolved, this would close the recommendation. However, if
it is not dissolved and the executive director does not resign, the Birmingham Office of Public
Housing should consider applying appropriate sanctions included in HUD Notice PIH 2007 –27
(HA), “Disallowed Costs and Sanctions Resulting from On-Site Monitoring.” The Notice
provides that if the Authority does not implement its corrective action within the timeframes
approved by the field office, 5 percent of its monthly scheduled operating subsidy will be
withheld beginning with the month the field office makes the sanction effective, and shall last
until the Authority has complied with the program requirements.

If the recommendation is not resolved, the potential risk for continued ineligible activities
remains, possibly weakening the Authority’s financial position and exposing the Authority to
potential liability.

On May 1, 2008, the executive director provided us a copy of the April 30, 2008, board meeting
minutes of the Opelika Housing Development Corporation. According to the minutes, the Board
accepted the executive director's resignation as president of the Development Corporation. As a
result, we consider Recommendation 1A resolved, and no further action is required.

Recommendation 1E

The Development Corporation has made regular monthly payments to the Authority to resolve
this recommendation. On February 5, 2008, it made its final payment. This recommendation is
resolved, and no further action is required.



                                               3
Recommendation 1F

On January 16, 2008, the Authority entered into a settlement agreement with Ashton Way
Apartments, LLC, et al. The settlement was the result of a lawsuit between the above parties.
The Birmingham office’s chief counsel reviewed the settlement agreement. In her opinion, the
agreement releases the Authority’s guarantee of general partner and developer obligations.
Based on this opinion, we consider the recommendation resolved, and no further action is
required.

Other Matters Requiring Action

During our review of the Authority’s Section 8 general ledger, we noted a receivable due from
the Development Corporation in the amount of $57,900. This receivable represents ineligible
Section 8 payments made to the Development Corporation by the Section 8 program.

HUD recovered the ineligible payments during 2005 through offset of Section 8 administration
fees from the Authority’s Section 8 program. However, the Development Corporation did not
reimburse the Authority for the ineligible payments.

The Authority was aware of the receivable but had not taken action to collect it. The
Birmingham Office of Public Housing needs to ensure that the Development Corporation pays
the receivable to the Authority.

According to the April 30, 2008, Development Corporation Board meeting minutes, the
certificates of deposit held as guaranty for Ashton Way Apartments will be used to pay the debt
back to the Authority.

       1A.     Require the Authority to collect $57,900 from the Development Corporation.

                                      Auditee’s Response

We discussed our results with your office during the review. We also provided your office a
draft report on April 10, 2008, and discussed the report with your representatives at an exit
conference on April 29, 2008. On May 2, 2008, your office provided written comments
regarding the draft report. You agreed with the results of this report and agreed to ensure the
$57,900 owed to the Authority by the Development Corporation is collected. In accordance with
HUD Handbook 2000.6, REV-3, upon issuance of this report, we are recording the management
decisions in the Department’s Audit Resolution and Corrective Action Tracking system.

Your response and our evaluation of the response are included in the appendix to this report.




                                                4
Appendix

            OIG Evaluation of Auditee Comments




Comment 1


Comment 2




                            5
                        Auditee Comments and OIG's Evaluation


Refer to OIG Evaluation

Comment 1    We concur with the Office of Public Housing’s position and consider
             Recommendation 1A resolved.

Comment 2    We concur with the Office of Public Housing’s position to follow-up with the
             Authority to ensure the funds are repaid.




                                             6
